The Library of Congress
Office of the Inspector General




             Human Resources Services

         HRS Is Responding to Performance
         Challenges, But Additional Controls
                  and Oversight Are Needed

                       Audit Report No. 2003-PA-101

                                   September 2003
UNITED STATES GOVERNMENT                                  LIBRARY OF CONGRESS

Memorandum                                             Office of the Inspector General

TO:           James H. Billington                                 September 30, 2003
              Librarian of Congress

FROM:         Karl W. Schornagel
              Inspector General

SUBJECT:      HRS Is Responding To Performance Challenges,
              But Additional Controls and Oversight Are Needed
              Final Audit Report No. 2003-PA-101


This transmits our final report on performance management and internal controls within Human
Resources Services. The executive summary begins on page i. The HRS response to our draft
report is briefly summarized in the executive summary and in more detail after individual
recommendations appearing on pages 7, 9, 11, 13, 14, 15, and 16. For your convenience, a
consolidated list of recommendations is contained in Appendix A on page 17. HRS’ complete
response to the draft report is included as Appendix B beginning on page 18.

We request that HRS provide an action plan addressing implementation of the recommendations,
including implementation dates, within 30 calendar days. Based on HRS’ response to the draft
report, we consider all recommendations resolved except for I.A.2 and II.B. Accordingly, the
action plan should address recommendations I.A.2 and II.B in accordance with LCR 1519-1,
Section 4.B.

We appreciate the cooperation and courtesies extended by HRS staff during the audit.




cc: Deputy Librarian
    Director, Human Resources Services
The Library of Congress                                           Audit Report No. 2003-PA-101
Office of the Inspector General                                                 September 2003

                                  TABLE OF CONTENTS




OBJECTIVES, SCOPE, AND METHODOLOGY……………………………………...……                                      3

FINDINGS AND RECOMMENDATIONS………………………………………………….                                           5

I.    HRS is Strengthening Performance Management, But Additional Effort is Needed…...     5

      A. Specific and Measurable Standards Are Vital for Effective Performance
         Appraisals……………………………………………………………………………                                           6
         Recommendations…………………………………………………………………...                                       7
      B. More Detailed Analysis of PAR Processing Will Identify Inefficiencies
         and Ensure Better Accuracy……………………………..…………………………..                               7
         1. Individual staff productivity…………………………………………………...…                           8
         2. Processing time by type of personnel action………………………………...…...                 8
         3. Error rate……………………...………………………………………………….                                      8
            Recommendations………………………………………………………………..                                      9
      C. HRS and Service Units Need to Take Steps to Ensure Timely PAR Processing…...      10
         Recommendations…………………………………………………………………...                                       11

II.   Stronger Internal Controls Are Required to Ensure Accuracy and Validity……………         12

      A. An Employee Independent of PAR Processing Should Distribute the SF 50s……...       12
         Recommendations..……………………………………………………….................                           13
      B. Job Vacancy Applications Submitted Manually Require Additional Controls.…….       14
         Recommendation………….………………………………………………………...                                       14
      C. Tighter Controls Required for Pay Garnishments……………………………...…...                  15
         Recommendation…………….……………………………………………………...                                       15
      D. HRS Management Should Periodically Validate Donated Leave Transactions…….         15
         Recommendations…………………………………………………………………...                                       16

APPENDIXES

      A. Consolidated List of Recommendations…………...……….…………….………....                      17
      B. HRS Response to Draft Report………………………………………………….…..                               18
The Library of Congress                                                           Audit Report No. 2003-PA-101
Office of the Inspector General                                                                 September 2003

                                       EXECUTIVE SUMMARY

This report presents the results of our audit of the Library’s Human Resources Services (HRS)
program. We limited the scope of our audit to evaluating the HRS internal performance
management control systems. Specifically, we tested to determine if HRS is (1) providing
quality performance plans with clear operational criteria, (2) tracking work-in progress and time-
frames for completing service, (3) conducting supervisory reviews of the quality and timeliness
of services, (4) obtaining feedback from customers, and (5) addressing and resolving
performance issues.

Library of Congress Regulation (LCR) 212-1, Functions and Organization of Human Resources,
dated July 16, 2003, describes the general functions and organization of HRS. The HRS Director
is responsible for recommending, administering, and providing services relating to personnel
policies, procedures, and programs; administering the labor relations program of the Library; and
enforcing and interpreting applicable laws and regulations of the U.S. Office of Personnel
Management and other Federal personnel agencies. In FY 2002, HRS reorganized into five
offices: Strategic Planning and Automation; Workforce Acquisitions (staffing and classification);
Workforce Management (labor relations issues); Work Life Services Center (new employee
orientation, payroll, time and attendance, and oversight for processing Personnel Action
Requests); and Workforce Diversity and Accommodations. 1

Beginning with the reorganization in FY 2002, HRS has worked to improve its customer service
and performance management. However, substantial opportunities exist for improvement, and
we expect that HRS will continue to refine its goals and strategies by focusing on a more
systematic, in-depth, and continuous effort to evaluate and improve human resource management
within HRS. To support this long-term transformation, HRS management needs to strengthen its
performance management, and improve internal control over processing of SF50s, manually
submitted vacancy applications, garnishments, and donated leave. HRS management is taking
aggressive steps to rectify these faults. Our findings and recommendations are summarized as
follows:

HRS is Strengthening Performance Management, But Additional Effort is Needed

HRS has begun laying the groundwork for a fully effective performance management system,
and we commend its efforts. However, significant additional actions are needed to continue
improving management control to support this long-term transformation. Specifically, HRS
needs to do more in three areas (1) establishing performance criteria, (2) monitoring performance
and ensuring accuracy, and (3) ensuring timely submission and processing of Personnel Action
Requests (PARs). By addressing these three issues, we believe HRS can substantially improve
its efficiency and enhance its customer service.

The majority of internal individual performance reviews documented in the first half of FY 2003
used broad, vague statements that did not give a relatively clear indication of the quality or
quantity of the employee’s work. We found little focus on expected outcomes or outputs, such

1
  Subsequently, the Office of Workforce Diversity was made an independent office (within the Office of the
Librarian) separate from Human Resources Services.


                                                        i
The Library of Congress                                                 Audit Report No. 2003-PA-101
Office of the Inspector General                                                       September 2003

as the number of activities an employee accomplished, for which the supervisor could more
objectively assess or measure performance. Consequently, it is too difficult for HRS directors to
effectively differentiate performance among staff and take action to address unsatisfactory
performance. We recommend that HRS develop clearly defined, measurable, and consistently
communicated performance expectations, and install a monitoring system to evaluate how well
the supervisors have implemented the performance system (see page 6).

We also found that HRS management is not making full use of the information tracked in the
Library Employee Automated Data System (LEADS) and by the National Finance Center (NFC)
to effectively monitor workload and identify areas for improvement. We found significant
differences among staff productivity, and the time to process the various personnel actions varied
greatly. We recommend that HRS management more closely monitor processing times and error
rates (see page 7).

Regarding timeliness, HRS processed only 16 percent (60 of 379) of the PARs on or before the
proposed effective date during January and February 2003. Untimely PAR processing is
attributable to both the Service Units and HRS. We recommend that HRS (1) require staff to
report on actions held longer than ten days with an explanation for the delay, and (2) issue a
memorandum to the Service Units emphasizing that PARs need to be submitted to HRS at least
10 days before the proposed effective date, whenever feasible (see page 10).

Stronger Internal Controls Are Required to Ensure Accuracy and Validity

In addition to the performance management issues discussed above, we found four areas where
HRS needs to strengthen its internal controls, (1) separating duties, including distributing SF50s,
(2) processing manually submitted vacancy applications, (3) processing garnishments, and (4)
administering donated leave.

Three HRS staff have LEADS access rights that permit them to initiate and approve a personnel
action. While the LEADS system will not permit a staff member to input an action for
themselves, management may find it difficult to establish individual accountability if these users
were to change or delete data either through mistake or malicious activity. We recommend that
HRS management review any actions initiated by HRS staff that affect pay or benefits, and
assign an employee without NFC access to distribute and validate SF50s (see page 13).

Current controls do not effectively ensure that HRS staffing specialists input manual vacancy
applications into the AVUE system and forward all supporting documents to selecting officials.
The effect is that HRS unnecessarily delays the hiring process and could exclude an eligible
applicant from the interview process. We recommend that HRS management establish a
checklist for manual applications to ensure supporting documents are forwarded to selecting
officials (see page 14).

We also found that HRS needs better tracking controls to ensure that it submits valid pay
garnishments to NFC on a timely basis. Our sample review of court ordered garnishments
revealed that 4 out of 10 had irregularities. We recommend that the HRS Work Life Services
Director obtain a listing of garnishments from the Office of General Counsel and follow up



                                                 ii
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

periodically to ensure that HRS processes the approved garnishments in a timely manner (see
page 15).

There is also a separation of duties issue involving the Donated Leave Program. HRS assigned a
Library Services employee and former HRS payroll specialist sole responsibility for recording
the transactions for the Donated Leave Program. This Library Services employee is the only
person outside of HRS with access to NFC. We believe that the opportunity exits to falsify leave
records without detection since no one in HRS reviews the transactions to ensure validity. We
recommend that HRS management assign responsibility for the donated leave transactions to an
HRS employee, as soon as practicable, and periodically sample donated leave transactions to
validate accuracy and credibility (see page 16).

HRS Response and OIG Comments

In responding to the draft report, HRS agreed to implement 16 of the 17 recommendations,
although it disagreed with one of the figures we used to demonstrate untimely processing.

HRS also disagreed with our finding that its controls do not effectively ensure that staffing
specialists input all manually submitted job application documents into AVUE, or that the
documents are forwarded to the selecting official, but offered no evidence that these applications
are being accurately posted. HRS disagreed with our recommendation to use a checklist:

        “HRS does not consider such a checklist necessary as our current operating procedures
        dictate that interview panels receive applications, resumes, and copies of the standard
        guide booklet. These procedures govern applications received either manually or via the
        automated process.”

While we agree that procedures are in place, our analysis indicated that additional controls are
needed to ensure that staff follow the procedures because Service Units have reported cases
where application documents were not forwarded to interview panels. We believe that a
checklist would better ensure equity to those candidates who choose to apply manually. Use of
the checklist would represent an insignificant increase in workload given the small number of
manual applications received.

Our complete list of recommendations is included as Appendix A.




                                                iii
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003



                                       INTRODUCTION

This report presents the results of our audit of the Library’s Human Resources Services (HRS)
program. We limited the scope of our audit per the HRS Director’s request. The Director made
this request since HRS had recently reorganized and three new managers were hired in 2002.
Specifically, we evaluated the HRS performance management system and internal control
system. Both the GAO and the Library have identified performance management as a critical
element to success. In January 2001, GAO designated strategic human capital management as a
government-wide high-risk area concluding that most agencies lacked a consistent strategic
approach to marshaling, managing, and maintaining the human capital needed to maximize
government performance and ensure its accountability. Library senior management likewise
recognizes the importance of performance management. The Library of Congress Strategic Plan
for Fiscal Years 2004 through 2008 details objectives for HRS that include:

       Establishing meaningful and measurable performance baselines for all of the Library’s
        programs and for the support functions performed by the enabling infrastructure.

       Making personnel administration responsive, efficient, and effective.

       Developing and embracing implementation of systems that reward staff for quality
        performance and customer service.

Library of Congress Regulation (LCR) 212-1, Functions and Organization of Human Resources,
dated July 16, 2003, describes the general functions and organization of HRS. The HRS Director
is responsible for recommending, administering, and providing services relating to personnel
policies, procedures, and programs; administering the labor relations program of the Library; and
enforcing and interpreting applicable laws and regulations of the U.S. Office of Personnel
Management and other Federal agencies.

According to HRS, it is presently evolving from a paper processor/record keeper for personnel
actions to a business partner working with Library managers to assist them in maximizing the
use of the Library’s human resources toward accomplishing the Library’s goal to recruit,
develop, and maintain a highly skilled and diverse workforce. HRS’ intent is to become less
hierarchical, process-oriented, stovepiped, and inwardly focused; and more flat, results-oriented,
integrated, and externally focused. In support of this goal, its strategy is to streamline and
automate staffing and personnel action processes. This audit report demonstrates that substantial
opportunities exist for improvements, and we expect that HRS will continue to refine its goals
and strategies by focusing on a more systematic, in-depth, and continuous effort to evaluate and
improve its internal human resources management. HRS will need to follow up through
effective implementation and assessment to determine whether its plans lead to improvements in
human resources management and program outcomes.




                                                1
The Library of Congress                                                           Audit Report No. 2003-PA-101
Office of the Inspector General                                                                 September 2003



                                              BACKGROUND

HRS, in partnership with the service and infrastructure units, designs and implements the
policies, procedures, and systems to build, develop, and manage the workforce in support of the
Library's mission and priorities. In FY 2002, HRS reorganized to better serve its customers. All
human resources functions were organized into five units including the Offices of (1) Strategic
Planning and Automation, (2) Workforce Acquisitions (staffing and classification), (3)
Workforce Management (labor relations issues), (4) Work Life Services (new employee
orientation, oversight for processing PARs, payroll, and time and attendance), and (5) Workforce
Diversity and Accommodations. 2 According to the HRS web page, it:

            Provides advice, assistance, and training to Library management officials and
             supervisors at all levels to carry out their personnel management responsibilities, and
             meets the needs of managers and supervisors arising from daily Library operations;

            Formulates policies and regulations in order to promote enlightened and advanced
             personnel and organizational management in the execution of the Library's mission;

            Develops, implements, and reviews the Library's personnel programs and
             labor/management activities;

            Advises or represents management on labor/management matters; and

            Counsels or otherwise assists staff to resolve work-related and other problems which
             may affect performance.

In FY 2002, HRS had 77 positions. The Library’s ratio of total staff to HRS staff is 54 to 1.
This is in line with other large government agencies. The Office of Personnel Management’s
FEDSCOPE reported that agencies with over 1,000 employees averaged 58.96. As the number
of Library FTE positions has declined the past five years, the number of HRS staff has generally
declined. The Library spends more than $2,000 per employee for HRS services annually based
on the total HRS budget and the Library’s actual full time equivalent employees, however, this
does not include the cost of payroll processing by the United States Department of Agriculture’s
National Finance Center (NFC) and the cost of shadow personnel staff within the Service Units.
We estimated that the Library spends an additional $2.5 million annually on 33 FTE shadow
personnel staff, or approximately $600 per Library employee. Including these shadow staff
personnel, the ratio of total Library staff to personnel staff diminishes to 37.7 to 1.




2
  Subsequently, the Office of Workforce Diversity was made an independent office (within the Office of the
Librarian) separate from Human Resources Services.


                                                       2
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003



Table 1.         5-Year Library and HRS Staffing Levels, and HRS Costs
                   Library       HRS FTE Positions         Ratio of                 HRS cost per
                 Actual FTE       Including AWF      Library FTE/HRS                  Library
                                                             FTE                     employee
FY 1998             4,260               95                    45                      $1,900
FY 1999             4,223               90                    47                      $1,951
FY 2000             4,214               91                    46                      $2,026
FY 2001             4,163               86                    48                      $2,167
FY 2002             4,147               77                    54                      $2,146

HRS strategic plans include implementing an integrated Human Resources Management System.
Presently, human resource data is maintained on several independent systems. The Library
Employee Automated Data System (LEADS) helps Service Units create, route, and track all
Personnel Action Requests (PARs) and provides instant access to personnel-management data
(such as job series, grade, step, and service computation date). PARs cover many types of
personnel actions, including promotions, reassignments, details, and data changes. LEADS
features electronic PAR routing for Service Unit approvals and HRS processing, as well as
online ad hoc reporting capabilities. HRS specialists check the PARs for correctness and
compliance with laws and regulations. After this check, personnel actions are sent electronically
via LEADS to the Library’s payroll agent for processing (LEADS interfaces with the automated
payroll system).

The Library’s payroll processing is conducted through a fee-for-service contract with the NFC.
NFC offers cross-servicing (also known as franchising) of its administrative, financial, and
management information systems to other Federal departments and agencies. NFC provides
consolidated payroll/personnel to the Library. NFC’s payroll/personnel system incorporates a
fully integrated online database that maintains employee personnel records and time and
attendance reports, and processes a biweekly payroll for over 450,000 employees government-
wide.

                         OBJECTIVES, SCOPE, AND METHODOLOGY

We limited our objectives to evaluating HRS' performance management systems and internal
controls over specific functions including:

       Providing quality performance plans with clear operational criteria;

       Tracking work-in-progress and timeframes for completing services;

       Conducting supervisory reviews of the quality and timeliness of services;

       Obtaining feedback from customers; and

       Addressing and resolving performance issues.



                                                3
The Library of Congress                                               Audit Report No. 2003-PA-101
Office of the Inspector General                                                     September 2003

To address these objectives, we reviewed documents related to HRS’ performance management
systems and discussed the systems with the officials responsible for developing and
implementing them. We interviewed each of the HRS Directors plus other key personnel. We
performed a content analysis of the FY 2003 written performance evaluations for HRS staff. We
conducted walk-throughs of the various processing systems and tested samples of transactions to
ensure that the established controls were effective and working as intended. Based on
preliminary evaluation and interviews, we focused our testing on the work handled by the Office
of Work Life Services. Work Life Services is responsible for areas that most affect Library staff
(PAR processing, payroll, and time and attendance). Within Work Life Services, we performed
quantitative analyses of quantity, timeliness, and accuracy of the information input into the
LEADS and NFC systems.

The audit was conducted in accordance with the Government Auditing Standards issued by the
Comptroller General of the United States and LCR 1519.1, Audits and Reviews by the Office of
Inspector General, October 18, 1999. We accepted the quantitative data (number of transactions
processed) in LEADS and by NFC as accurate. We conducted our fieldwork between January
and April 2003. We held an exit conference with the HRS Director and management staff on
June 30, 2003.




                                                4
The Library of Congress                                                  Audit Report No. 2003-PA-101
Office of the Inspector General                                                        September 2003



                             FINDINGS AND RECOMMENDATIONS

Beginning with the reorganization in FY 2002, HRS has worked to improve its customer service
and performance management and we expect that HRS will continue to refine its goals and
strategies, and focus on a more systematic, in-depth, and continuous effort to evaluate and
improve its human resources management. Initiatives during FY 2002 and FY 2003 included:

        Reorganizing to better structure its workload and to serve the Library;

        Making better use of the LEADS system to monitor workload and assess timeliness;

        Conducting employee appraisals for all HRS staff in FY 2003 (appraisals prior to this had
         been sporadic);

        Creating a Performance Management Specialist position to develop performance
         measures for HRS staff, as well as Library-wide staff; and

        Seeking Executive Committee approval to purchase a human resource management
         system.

Notwithstanding these efforts, substantial opportunities exist for improvements in internal
performance management and internal control. At the time of our fieldwork, HRS had not
developed quality performance plans with clear operational criteria for its employees. HRS
management informed us that they are taking aggressive steps to rectify this fault. Also, HRS
managers need to make better use of management information. A new integrated system should
provide its managers with better and timelier information. However, a new system alone is not
the solution. Existing HRS automated systems provide useful management information
concerning whether personnel actions and payroll actions are input accurately, and in a timely
manner, but HRS is not effectively using this information.

In addition to the performance management issues, we found four areas where HRS needs to
strengthen its internal controls, (1) distributing SF50s, (2) processing manually submitted
vacancy applications, (3) processing garnishments, and (4) administering the donated leave
program.

I.       HRS is Strengthening Performance
         Management, But Additional Effort is Needed

HRS has begun laying the groundwork for a fully effective performance management system,
and we commend the effort. However, additional changes are needed to improve management
control to support this long-term transformation. Specifically, HRS needs to focus on (1)
establishing performance criteria, (2) monitoring performance and ensuring accuracy, and (3)
ensuring timely submission and processing of PARs. By addressing these three issues, we
believe HRS can considerably improve its efficiency and enhance its customer service.



                                                  5
The Library of Congress                                                 Audit Report No. 2003-PA-101
Office of the Inspector General                                                       September 2003

        A. Specific and Measurable Standards Are
           Vital for Effective Performance Appraisals

HRS management has not developed performance plans for its employees that are specific,
measurable, and output oriented. More importantly, ratings do not meaningfully differentiate
among performance levels and provide a basis for effective performance incentives.
Consequently, performance appraisals are overly subjective and based on an undefined number
of actions processed, number of errors, or reasonable timeframe. The lack of specific and
measurable performance criteria makes it difficult for supervisors to identify and reward top
performers and effectively take action to address unsatisfactory performers. Most work lends
itself to specific measurable goals, however, we recognize that some tasks do not. For these
tasks, the use of customer surveys, focus groups, or peer ratings provides an objective basis for
appraisal. According to the Office of Personnel Management’s (OPM) A Handbook for
Measuring Employee Performance: Aligning Employee Performance Plans with Organizational
Goals, September 2001, “Developing elements and standards that are understandable,
measurable, attainable, fair, and challenging is vital to the effectiveness of the performance
appraisal process…”

The majority of performance reviews conducted during the first half of FY 2003 were broad,
vague statements that did not give a relatively clear indication of the quality or quantity of the
actions performed, and did not include relevant information such as the frequency of the action
or what should be accomplished. For example, the appraisals mentioned that employees
performed at “commendable level,” “satisfactory level,” “effectively performed work,” “worked
diligently,” or “performed at a good sound level.” There was little focus on expected outcomes
or outputs, such as the number of activities an employee accomplished. Focusing on outcomes
and outputs allows supervisors to more objectively assess or measure the employee's
performance. OPM provides examples of measurable performance standards:

       No more than 8% errors per quarter, as determined by the supervisor.

       At least 60% of customers agree that the employee is willing to assist and that the
        information they receive is helpful.

       Employee initially responds to customer requests for assistance within eight working
        hours from receipt of request.

A properly functioning performance management process necessitates cooperation and
coordination between supervisor and employee. In addition to rating staff, the HRS Director
needs a process to evaluate how well the supervisors have (1) developed performance
expectations, (2) implemented the performance process, and (3) followed HRS’ processes for
evaluating employees. This process could include, for example, an employee survey to obtain
information on whether supervisors are involved in the development of their subordinates’
performance goals, whether they are giving appropriate emphasis to each of the critical job
responsibilities and supporting behaviors, and whether they are providing useful feedback.
Active monitoring could give HRS management a sense of how the systems are working in



                                                 6
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

practice and whether any modifications are needed to provide more useful feedback to managers
and employees about performance, and better align the systems with HRS’ strategic goals.

The HRS Director said that until recently, she did not have the staff or the time to achieve
effective planning and directing. Instead, the office was busy responding to requests for service.
She further attributed the shortcomings to the lack of an integrated system to track all HRS-
related functions.

Recommendations:

We recommend that HRS:

1.      Develop clearly defined, measurable, and consistently communicated performance
        expectations addressing a range of results/customer/employee issues that are required to
        rate, reward, and hold employees accountable.

2.      Implement a monitoring process to evaluate how well the managers/supervisors have
        implemented and monitored the performance system.

HRS Response and OIG Comments

HRS concurred with the recommendations and has hired a Performance Management Specialist.
The specialist developed new performance plans and included universal performance standards
for customer service for all positions. HRS expected to conclude all discussions between
supervisors and staff on performance plans by September 30, 2003.

         B. More Detailed Analysis of PAR Processing Will
            Identify Inefficiencies and Ensure Better Accuracy

HRS management is not making full use of the information in LEADS and provided by NFC to
effectively monitor workload and identify areas for improvement. The Work Life Services
Director tracks the number of actions processed by each specialist, and the average processing
time, however, he does not calculate and monitor the (1) processing time by the Technical
Services Assistants, (2) processing time by type of personnel action, or (3) error rate for each
staffer processing personnel actions. The effect is that the Work Life Services Director lacks the
data necessary to effectively evaluate PAR processing. Increased monitoring is necessary to
ensure that staff are performing to their potential. Our testing revealed significant productivity
differences (addressed in finding I.B.3 below) among staff. Title 5 U.S.C.2301 (b) mandates
that:

     "(5) The Federal workforce should be used efficiently and effectively."

     "(6) Employees should be retained on the basis of the adequacy of their performance,
     inadequate performance should be corrected, and employees should be separated who cannot
     or will not improve their performance to meet required standards."




                                                7
The Library of Congress                                               Audit Report No. 2003-PA-101
Office of the Inspector General                                                     September 2003



               1. Individual staff productivity

LEADS reports prepared for HRS management combine the time the Technical Services
Assistant and the Technical Services Specialist holds the action. To better identify processing
inefficiencies, it is important for the Work Life Services Director to segregate the processing
times for these two positions so that individual staff member performance can be isolated.
Processing times varied significantly among the staff. For example, one Technical Services
Specialist processed PARs twice as fast as another Specialist. Similarly, the processing time by
the Technical Services Assistants varied significantly. One Assistant processed actions three
times faster than the other.

As noted in finding I.A., HRS has not established measurable performance criteria for processing
PARs, although its strategic plan includes a goal of processing PARs within 10 days of receipt.
This is less than half of the present processing time (for February 2003, HRS averaged 26 days to
process a PAR). To accomplish its goal, performance trends will have to be monitored more
closely. By monitoring continually, supervisors can identify unacceptable performance at any
time during the appraisal period and provide assistance to address performance issues rather than
waiting until the end of the period when the supervisor prepares the annual performance
appraisal.

            2.     Processing time by type of personnel action

HRS does not track processing time by type of action. This information is especially useful
when tracked over time to observe trends and identify types of actions that require management
attention to improve processing efficiency. Our analysis found that the time to process the
various personnel actions varied greatly. For example, during February 2003, Excepted
Appointment NTE (not to exceed) and management requests required twice the time to process
as a change in work schedule or a temporary promotion NTE as shown in Table 2 at the end of
this finding.

               3. Error rate

The NFC Entry, Processing, Inquiry, and Correction System (EPIC) report lists personnel actions
processed that resulted in a discrepancy that requires HRS attention. HRS management does not
track the percentage of errors by staffer as a performance measure, nor monitor the timeliness in
correcting the “less critical” errors. Our sample of records showed an error rate of about 8.5
percent. We could not determine how this rate compares with past years or with other agencies
since NFC does not track federal agency's error rates. Nevertheless, we consider the 8.5 error
percentage rate somewhat high. Based on our experience in evaluating various types of
transaction processing, we believe HRS should monitor error rates and establish a goal of 5
percent or less. Correcting these errors results in additional work for the HRS staff and expense
for the Library.

HRS managers closely monitor and correct errors shown on the NFC 99 error report (a report
from NFC listing Library employees that are in danger of not getting paid unless the error is



                                                  8
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

corrected). For less critical errors, however, HRS managers have not closely monitored the NFC
EPIC error reports to ensure that HRS staff are taking prompt action. We found that 50 percent
of the errors remained uncorrected after 7 days, and 32 percent were still unresolved after 17
days. The Work Life Services Director and the Workforce Acquisitions Director have either not
had the time to devote to this oversight or placed a low priority on correcting “non-critical”
errors. The effect is that NFC and LEADS records do not agree and the potential for the Library
improperly paying an employee increases.

We believe the number of errors and the delays in correcting the errors demand management
attention. GAO standards require establishing and using internal controls to ensure accurate and
timely recording of transactions and events. GAO recommends automated edit checks built into
the computerized system to review the format, existence, and reasonableness of data. This
category of control is designed to help ensure completeness, accuracy, authorization, and validity
of all transactions during application processing. The NFC system has these built-in edit checks.
However, HRS has not installed the controls necessary to ensure that staff identify and correct
the errors.

Table 2.         February 2003 PARs Processed by HRS Technical Services

TYPE OF ACTION                               NUMBER OF   AVERAGE      AVERAGE       AVERAGE
                                             ACTIONS     DAYS HELD    DAYS HELD     TOTAL DAYS
                                                         BY           BY            IN HRS
                                                         TECHNICAL    TECHNICAL     (HRS Goal is
                                                         SERVICES     SERVICES      10 Days)
                                                         TECHNICIAN   SPECIALIST
Change in Work Schedule                      15          4            14            18
Conversion to Excepted Appointment           30          4            17            21
End of Temporary Promotion                   12          9            23            32
Excepted Appointment NTE                     7           13           29            42
Extension of Appointment                     12          6            17            23
Job Reclassification                         31          4            20            24
Management Request                           8           8            55            63
Normal Career Progression                    40          9            20            29
Temporary Promotion NTE                      8           10           7             17
Termination of Detail                        17          7            15            22
Undescribed Duties                           10          9            9             18
Other Types of Actions (5 or less in Feb.)   53          6            21            24
All Actions & Time Frames                    243         6.72         19.64         26.36
HRS Time Frame Goal                                                                 10.00

Recommendations:

We recommend that HRS management:

1.      Calculate and monitor individual processing times for PAR processing.




                                                    9
The Library of Congress                                                  Audit Report No. 2003-PA-101
Office of the Inspector General                                                        September 2003

2.      Compare individual actual average processing times and actual actions completed with
        standards, and take appropriate action when employees are consistently below the
        standard.

3.      Calculate and track the processing time for each type of action. For actions that take
        consistently longer than the average, investigate to disclose possible bottlenecks or
        inefficiencies in work processes or staffing shortages.

4.      Establish an error rate goal, such as 5 percent, and track progress toward meeting this
        goal.

5.      Track the percentage of errors for each staff member inputting actions into NFC.
        Compare the error rate with the established standard and take appropriate action
        whenever an individual is consistently higher than the standard.

6.      Monitor the NFC Epic report more closely and require staff to submit a report explaining
        why they have not resolved any errors over 10 days old.

HRS Response and OIG Comments

HRS concurred with the finding and replied that it has created additional PAR processing reports
and has made those reports available to its management for review and action. Effective July
2003, the Work Life Services Director, or his designee, began reviewing reports on individual
processing times for PARs and is investigating actions that take longer than average to determine
the cause and initiate corrective action, if required. Additionally, the Work Life Services
Director is establishing an accuracy goal, and on a weekly basis, will track progress toward
meeting the goal.

        C. HRS and Service Units Need to Take
           Steps to Ensure Timely PAR Processing

During January and February 2003, HRS processed 84 percent (319 of 379) of the PARs after
the proposed effective date. Untimely PAR processing is attributable to both the Service Units
and HRS. Service Units determine the proposed date based on when the action needs to be
completed in order to take effect on time. Processing personnel actions after the proposed
effective date adversely affects time sensitive payroll actions that cannot take effect until HRS
processes and approves the PAR.

HRS has asked Service Units to submit personnel actions, such as transfers, promotions,
reassignments, classification actions, and other actions resulting in changes in the payroll, at least
ten days in advance of the proposed effective date. Only about one third of the PARs processed
during January and February 2003 met this target. Service Units submitted 45 percent of the
PARs to HRS on or after the proposed effective date. See Table 3.




                                                 10
The Library of Congress                                                  Audit Report No. 2003-PA-101
Office of the Inspector General                                                        September 2003

Table 3. Actions Processed January and February 2003 by Technical Services

      Amount of Lead-time for HRS         HRS Processed HRS Processed               TOTAL
                                           PAR Before     PAR After
                                            Proposed       Proposed
                                          Effective Date Effective Date
     Service Units submitted PAR to         52 (14%)        84 (22%)               136 (36%)
     HRS 10 or more days before
     effective date
     Service Units submitted PAR to            6 (1%)            67 (18%)           73 (19%)
     HRS 1 to 9 days before effective
     date.
     Service Units submitted PAR on or         0 (0%)           170 (45%)          170 (45%)
     after effective date.
     Total Actions                            58 (15%)          321 (85%)          379 (100%)

Untimely submission of the PAR involved all types of personnel actions to varying degrees. For
example, Service Units submitted approximately 80 percent of the “End of Temporary
Promotions” and “Excepted Appointment NTE” personnel actions with some lead-time.
However, less than 10 percent of the actions involving “Job Reclassifications” and “Undescribed
Duties” were submitted to HRS with any lead-time.

When the Service Unit did submit the PAR to HRS at least 10-days in advance, HRS completed
only 38 percent (52 of 136) before the proposed effective date. This statistic indicates that 10
days may not be sufficient and/or HRS is not processing the PARs timely. As discussed in our
first finding, HRS averaged 26 days to process a PAR, with a range of same day processing to
140 days. During February 2003, HRS held approximately 24 percent (60 of 243) of the
personnel actions for 30 days or more. One factor contributing to untimely processing is that
some HRS Technical Services Specialists hold PARs until the end of the pay period rather than
use the Future Date Function in NFC, and input the actions when first received. This makes the
processing time much higher than it should be.

The HRS Director, in her response to our Notification of Audit Findings, replied that since the
audit fieldwork, HRS has developed meaningful performance plans. The Director asked each
supervisor to have individual discussions with staff and come to an agreement on the final plan
by June 30, 2003.

Recommendations:

We recommend that HRS:

1.       Require staff to report on actions held longer than 10 days with an explanation for the
         delay.




                                                 11
The Library of Congress                                               Audit Report No. 2003-PA-101
Office of the Inspector General                                                     September 2003

2.      Issue a memorandum to the Service Unit Directors emphasizing that PARs need to be
        submitted to HRS at least 10 days before the proposed effective date to ensure that
        actions are processed by the effective date.

HRS Response and OIG Comments

HRS did not concur with the completion percentages cited in the finding, but did agree to
implement the recommendations. HRS calculated that it processed 87 percent of the PARs on
time when given the PAR at least 10-days in advance. HRS noted that five of the PARs that we
included as not processed within the 10-day goal were intentionally held to ensure that the
employees in question received their Cost of Living Adjustment. An additional nine PARs were
delayed due to inadequate or conflicting documentation submitted by the Service Unit.
According to HRS, “The evidence clearly indicates that HRS does a very good job processing
PARs by the desired effective date when given adequate lead-time to meet our responsibilities.
However, because we agree that the overall HRS processing time should not exceed 10 days, we
concur with the overall recommendations related to this issue.” Since the audit fieldwork, HRS
began requiring staff to report on actions held longer than 10 days with an explanation for the
delay. HRS also agreed to issue the memorandum to the Service Units.

We disagree with the HRS statement that when given a 10-day lead-time, it processed 87 percent
of the PARs in a timely manner. Giving HRS the benefit of including the five PARs
intentionally held and the nine received with inadequate documentation, we calculated the
completion rate as 48.5 percent (66 of 136). At the exit conference, we provided HRS
management with support for our calculations and asked them to meet with us to reconcile the
differences. HRS management declined the invitation. Regardless of any differences, we
believe that HRS will achieve improved processing time by implementing the controls we
recommended.

II.     Stronger Internal Controls Are Required
        to Ensure Accuracy and Validity

GAO’s Government Auditing Standards require that we obtain an understanding of the
management controls relevant to the programs/operations that we audit. Management controls
include the systems for measuring, reporting, and monitoring performance. In addition to the
performance management issues discussed above, we found four areas where HRS needs to
strengthen its internal controls including (1) distributing the Notification of Personnel Action
(OPM Standard Form 50 or SF50), (2) processing manually submitted vacancy applications, (3)
processing garnishments, and (4) administering the donated leave program.

        A. An Employee Independent of PAR
           Processing Should Distribute the SF50s

Three HRS staff have LEADS and NFC access that permits them to initiate a personnel action
and approve the same action. This lack of separation of duties is an even greater risk because
HRS allows these same staff members to separate and distribute the SF50s to the Service Unit,
the Division, the employee, and the official personnel folder. This four-part form acts as a



                                               12
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

control to ensure the personnel action is valid and accurate. The affected employee and the
Service Unit are given a copy of the SF50 to verify that HRS properly processed the PAR.
While the LEADS system will not permit a staffer to input an action for themselves, the three
employees with “super user” status could commit fraudulent acts for friends or each other. If
these users were to change or delete data through either mistake or malicious activity,
management may find it difficult to establish individual accountability. For example, an
unauthorized pay raise for a friend may go undetected without an independent person verifying
that the action is legitimate. We found that the HRS supervisors did not review the transactions
affecting payroll initiated by their staff.

GAO's Standards for Internal Control in the Federal Government, (GAO/AIMD-00-21.3.1)
states, "Key duties and responsibilities need to be divided or segregated among different people
to reduce the risk of error or fraud. This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transactions, and
handling any related assets. No one individual should control all key aspects of a transaction or
event."

HRS management believes that a few staff need “super user” status to take care of unusual
actions that may occur. If HRS needs to centralize this amount of authority to a few staff, it
needs compensating controls to detect unauthorized actions. Assigning a person independent of
the PAR processing to distribute the SF50s would sufficiently separate functions and increase
control. In addition to weak control, the present process for distributing and filing the SF50s has
resulted in delays in filing the SF50 in the official personnel folder, and misfilings. HRS may
want to consider centralizing this under one or two employees to better ensure consistency. HRS
management agreed with this finding and planned to implement our recommendations effective
July 2003.

Recommendations:

We recommend that HRS management:

1.      Review any actions initiated by HRS staff that affect pay.

2.      Assign an employee without NFC access to distribute and validate the copies of the SF50
        to the Service Unit, the Division, the employee, and the official personnel folder (OPF).
        The OPF copy should go to the HRS Specialist that processed the personnel action to
        permit comparison with the SF52 (Request for Personnel Action).

3.      The employee distributing the SF50 should promptly file the copy for the official
        personnel folder and investigate any missing folder immediately.

HRS Response and OIG Comments:

HRS concurred with the finding and stated that it had implemented the recommendations
effective July 2003.




                                                13
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

        B. Job Vacancy Applications Submitted
           Manually Require Additional Controls

HRS controls do not effectively ensure that staffing specialists input completely into AVUE the
job applications submitted manually and forward all supporting documents (submitted with the
hard copy application) to the selecting official. Although this represents a very low percentage
of job applicants, it is critical to the hiring process that all applicants receive the same
opportunities. HRS should forward all supporting documents to selecting officials, regardless of
method of application.

Most applicants for job vacancies submit their application electronically via AVUE. However,
the Library allows persons without access to AVUE to submit a hard copy application. HRS
scans these manual applications into AVUE, but supporting documentation is not input.
Selecting officials reported problems involving manual applications for multiple grades under
the same vacancy announcement. According to several selecting officials, this occurred because
HRS input into AVUE the manual application for only one grade. Furthermore, selecting
officials also reported delays in the selection process because they had to ask HRS for supporting
documents. These problems occur for the manual applications because HRS lacks an effective
control, such as a checklist, to ensure Staffing Specialists forward all eligible applications and
supporting documentation to the interview panel.

Recommendation:

We recommend that HRS management establish a checklist for manual applications to ensure
that staffing specialists forward the application and supporting documents to the selecting
official.

HRS Response and OIG Comments:

HRS did not concur with this finding stating “HRS does not consider such a checklist necessary
as our current operating procedures dictate that interview panels receive applications, resumes,
and copies of the standard guide booklet. These procedures govern applications received either
manually or via the automated process.” We agree that the current procedures are properly
designed to provide the same processing regardless of submission method. However, we
determined that staff do not strictly comply with the procedures and accordingly, a compensating
control is needed. As stated above, Service Units we interviewed cited isolated examples of
missing materials for manual applications. Although this was not typical, we believe that a
checklist would better ensure all materials are forwarded. Given the small number of manual
applications, we think this would represent an insignificant increase in workload. Unless HRS
can demonstrate that it can enforce compliance with internal processing procedures that are not
functioning properly, then it should implement the recommended checklist.




                                               14
The Library of Congress                                              Audit Report No. 2003-PA-101
Office of the Inspector General                                                    September 2003

        C. Tighter Controls Required for Pay Garnishments

HRS needs better tracking controls to ensure that it submits valid pay garnishments to NFC on a
timely basis. Our sample of 10 court ordered garnishments revealed that 4 of the 10 had
irregularities including:

    1. Request should have been sent to the Library of Congress Credit Union rather than to
       HRS,

    2. Request arrived at HRS very late,

    3. Person is not employed at the Library, and

    4. HRS did not have any documentation to support the garnishment.

Monitoring the processing of garnishments is difficult for the supervisor since HRS does not
receive the garnishment via LEADS (unlike PARs that are routed from the Service Units to HRS
via LEADS). If not closely monitored, delays in processing can go undetected and payroll
actions unnecessarily delayed. GAO's Standards for Internal Control in the Federal
Government, (GAO/AIMD-00-21.3.1) states that control activities help to ensure that all
transactions are completely and accurately recorded. Part of the Library’s control over
garnishments is a review by the Office of the General Counsel (OGC). OGC reviews the request
to determine legal sufficiency then forwards the request to HRS for payroll action. OGC
maintains a detailed record for each action including the date forwarded to HRS. This listing
could be useful for HRS management to monitor internal processing of the garnishments.

Recommendation:

We recommend that the HRS Work Life Services Director obtain a listing of garnishments from
OGC and follow up periodically to ensure that HRS processes the approved garnishments within
established time frames.

HRS Response and OIG Comments:

HRS concurred with the finding and planned to implement the recommendation by September 1,
2003.

        D. HRS Management Should Periodically
           Validate Donated Leave Transactions

A Library Services employee and former HRS payroll specialist is solely responsible for
recording the transactions for the Donated Leave Program for the entire Library. HRS
transferred this function to this employee because of her prior experience and because of an
ongoing investigation of the HRS employee that previously handled this function. In our
opinion, donated leave transactions are a human resources function and only HRS staff should
process these transactions. We base our opinion on LCR 2011-4, Approval of Personnel Action
Recommendations by the Director of Personnel. LCR 2011-4 Section 2.B, states “The Director


                                              15
The Library of Congress                                                Audit Report No. 2003-PA-101
Office of the Inspector General                                                      September 2003

of Human Resources is authorized to redelegate approval of Personnel Action Recommendations
to designated staff of the Human Resources Services Office.” We recognize this regulation
specifically mentions PARs. We believe the intent of the regulation regarding limiting
delegation to designated HRS staff applies to all personnel actions, including donated leave
transactions.

Notwithstanding the impropriety of delegating personnel functions outside of HRS, we believe
the present system provides the opportunity to falsify leave records without detection. No one in
HRS spot-checks or validates the donated leave transactions. This is particularly vital for this
processing since this Library Services employee is the only person outside of HRS with access to
NFC. The current internal controls generally ensure valid transactions. Separation of duties
occurs for the approval of the recipient of the leave and the approval of the donation. Health
Services must approve the recipient and the donors must submit a form to HRS for approval.
However, staff are responsible for reviewing their own leave records. There is not an overall
independent validation of these records.

GAO’s Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1 states
“Key duties and responsibilities need to be divided or segregated among different people to
reduce the risk of error or fraud. This should include separating the responsibilities for
authorizing transactions, processing and recording them, reviewing the transactions, and
handling any related assets.”

Recommendations:

We recommend that HRS management:

1.      Assign responsibility for the donated leave transactions to an HRS employee, as soon as
        possible.

2.      Periodically sample donated leave transactions to validate accuracy and credibility.

HRS Response and OIG Comments:

HRS concurred with the finding noting that since the audit fieldwork, it has returned
responsibility for the Donated Leave Program to Work Life Services staff. HRS stated that “A
Work Life Services supervisor will provide much closer oversight to ensure accuracy and
program credibility, as well as to protect against potential fraud.”




                                                16
The Library of Congress                                               Audit Report No. 2003-PA-101
Office of the Inspector General                                                     September 2003

                                                                                 APPENDIX A


                      CONSOLIDATED LIST OF RECOMMENDATIONS

I. A. 1. Develop clearly defined, measurable, and consistently communicated performance
         expectations addressing a range of results/customer/employee issues that are required
         to rate, reward, and hold employees accountable.
      2. Implement a monitoring process to evaluate how well the supervisors have
         implemented and monitored the performance system.
   B. 1. Calculate and monitor individual processing times for PAR processing.
      2. Compare individual actual average processing times and actual actions completed
         with standards, and take appropriate action when employees are consistently below
         the standard.
      3. Calculate and track the processing time for each type of action. For actions that take
         consistently longer than the average, investigate to disclose possible bottlenecks or
         inefficiencies in work processes or staffing shortages.
      4. Establish an error rate goal, such as 5 percent, and track progress toward meeting this
         goal.
      5. Track the percentage of errors for each staffer inputting actions into the NFC.
         Compare the error rate with the established standard and take appropriate action
         whenever an individual is consistently higher than the standard.
      6. Monitor the NFC Epic report more closely and require staff to submit a report
         explaining why they have not resolved any errors over 10 days old.
   C. 1. Require staff to report on actions held longer than 10 days with an explanation for the
         delay.
      2. Issue a memorandum to the Service Unit Directors emphasizing that PARs need to be
         submitted to HRS at least ten days before the proposed effective date to ensure that
         actions are processed by the effective date.

II. A. 1. Review any actions initiated by HRS staff that affect pay.
       2. Assign an employee without NFC access to distribute and validate the copies of the
           SF50 to the Service Unit, the division, the employee, and the OPF. The OPF copy
           should go to the HRS Specialist that processed the personnel action to permit
           comparison with the SF52 (Request for Personnel Action).
       3. The employee distributing the SF50 should promptly file the copy for the Official
           Personnel Folder and investigate any missing folder immediately.
    B. Establish a checklist for manual applications to ensure that staffing specialists forward
       the application and supporting documents to the selecting official.
    C. Obtain a listing of garnishments from OGC and follow up periodically to ensure that
       HRS processes the approved garnishments within established time frames.
    D. 1. Assign responsibility for the donated leave transactions to an HRS employee, as soon
           as possible.
        2. Periodically sample donated leave transactions to validate accuracy and credibility.




                                               17
The Library of Congress                                           Audit Report No. 2003-PA-101
Office of the Inspector General                                                 September 2003

                                                                             APPENDIX B
                                                                                  (Page 1 of 6)
                     Human Resources Services Response to the Draft Report




                                              18
The Library of Congress                Audit Report No. 2003-PA-101
Office of the Inspector General                      September 2003

                                                 APPENDIX B
                                                     (Page 2 of 6)




                                  19
The Library of Congress                Audit Report No. 2003-PA-101
Office of the Inspector General                      September 2003

                                                 APPENDIX B
                                                     (Page 3 of 6)




                                  20
The Library of Congress                Audit Report No. 2003-PA-101
Office of the Inspector General                      September 2003

                                                 APPENDIX B
                                                     (Page 4 of 6)




                                  21
The Library of Congress                Audit Report No. 2003-PA-101
Office of the Inspector General                      September 2003

                                                 APPENDIX B
                                                     (Page 5 of 6)




                                  22
The Library of Congress                Audit Report No. 2003-PA-101
Office of the Inspector General                      September 2003

                                                 APPENDIX B
                                                     (Page 6 of 6)




                                  23
